<html>
<title> - EXAMINING THE STRATEGY FOR ACHIEVING THE GOALS OF THE NEW VOLUNTARY CHESAPEAKE BAY WATERSHED AGREEMENT</title>
<body><pre>[Senate Hearing 113-794]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-794

                  EXAMINING THE STRATEGY FOR ACHIEVING
                     THE GOALS OF THE NEW VOLUNTARY
                   CHESAPEAKE BAY WATERSHED AGREEMENT

=======================================================================

                             FIELD HEARING

                               before the


                   SUBCOMMITTEE ON WATER AND WILDLIFE

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 8, 2014

                               __________

  Printed for the use of the Committee on Environment and Public Works


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________

                       U.S. GOVERNMENT PUBLISHING OFFICE 

98-185 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JAMES M. INHOFE, Oklahoma
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
TOM UDALL, New Mexico                MIKE CRAPO, Idaho
JEFF MERKLEY, Oregon                 ROGER WICKER, Mississippi
KIRSTEN GILLIBRAND, New York         JOHN BOOZMAN, Arkansas
CORY A. BOOKER, New Jersey           DEB FISCHER, Nebraska
EDWARD J. MARKEY, Massachusetts

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                              ----------                              

                   Subcommittee on Water and Wildlife

                 BENJAMIN L. CARDIN, Maryland, Chairman
THOMAS R. CARPER, Delaware           JOHN BOOZMAN, Arkansas
SHELDON WHITEHOUSE, Rhode Island     JAMES M. INHOFE, Oklahoma
JEFF MERKLEY, Oregon                 JOHN BARRASSO, Wyoming
KIRSTEN GILLIBRAND, New York         JEFF SESSIONS, Alabama
CORY A. BOOKER, New Jersey           DEB FISCHER, Nebraska
BARBARA BOXER, California (ex        DAVID VITTER, Louisiana (ex 
    officio)                             officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 8, 2014
                           OPENING STATEMENTS

Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     1

                               WITNESSES

Dipasquale, Nick, Director, Chesapeake Bay Program, Environmental 
  Protection Agency..............................................     9
    Prepared statement...........................................    13
    Responses to additional questions from Senator Vitter........    24
Robertson Peyton, Director, NOAA Chesapeake Bay Office...........    26
    Prepared statement...........................................    28
    Responses to additional questions from Senator Vitter........    35
Ward Hon. Molly, Secretary of Natural Resources, State of 
  Virginia.......................................................    37
    Prepared statement...........................................    39
Miller, Hon. Ronald , Representative, Pennsylvania House of 
  Representatives................................................    45
    Prepared statement...........................................    47
Lisanti, Hon. Mary Ann, Councilmember, Harford County Council....    62
    Prepared statement...........................................    64
Hershey, Hon. Steve, Senator, Maryland Senate....................    87
    Prepared statement...........................................    90
    
 
  EXAMINING THE STRATEGY FOR ACHIEVING THE GOALS OF THE NEW VOLUNTARY 
                   CHESAPEAKE BAY WATERSHED AGREEMENT

                              ----------                              


                       MONDAY, SEPTEMBER 8, 2014

                                U.S. SENATE
          Committee on Environment and Public Works
                         Subcommittee on Water and Wildlife
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1 p.m., in the 
Joint Committee Hearing Room of the Legislative Services 
Building, Hon. Benjamin L. Cardin, chairman of the 
subcommittee, presiding.
    Present: Senator Cardin (presiding).

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin: Well, let me welcome you all to the hearing 
of the Subcommittee on Water and Wildlife of the Environment 
and Public Works Committee.
    I want to thank Senator Boxer and Senator Vitter, the 
chairman and ranking Republican member of the Environment and 
Public Works Committee, for authorizing this hearing in 
Annapolis of the subcommittee. And I thank Senator Boozman, my 
ranking Republic member on the Water and Wildlife Subcommittee, 
for the cooperation in allowing this hearing to take place.
    Very important subject. And that, of course, is the 
Chesapeake Bay Agreement. This is an issue that we have been 
working on together for a long, long time.
    And it's great to be here in this particular hearing room. 
As I think most of you know, I'm a former Speaker of the State 
Legislature, so I have very fond memories of Annapolis and my 
time in Annapolis.
    But, I think top on that list would be working with then 
Governor Harry Hughes in the late 1970's, early 1980's, when we 
really started the Chesapeake Bay program. With our friends 
from Virginia and Pennsylvania, we initiated efforts, studies 
were had. And Senator Mac Mathias, of course, played a critical 
role in getting Federal funds for the initial study that led to 
the first Chesapeake Bay agreements. And I remember working 
very closely with Governor Hughes, and was amazed at the 
formula that was used back then for the Chesapeake Bay program, 
which basically was: let's get all stakeholders--all 
stakeholders together, let's listen to everyone, let science be 
our guide, and let's include not just our partners at the 
governmental level, which was the Federal, State, and local, 
but also the private sector. And, of course, over that period 
of time, with the help of the Chesapeake Bay Commission and 
other groups, we have made tremendous progress on the 
Chesapeake Bay.
    So, I start by saying that, but for that work, we would be 
in much worse shape today than we are. We've made a lot of 
progress. And when we look, the look of the Chesapeake Bay, the 
whole atmosphere around the Bay has paid off great dividends 
for landowners and those who use the Bay for commerce, and 
certainly for tourism and the way of life here in our State.
    So, we come to this hearing recognizing that we have made a 
lot of progress, but also recognizing there are significant 
challenges ahead of us and that we need to look forward and 
modernize what needs to be done on the Chesapeake Bay 
Agreement. That's why I'm particularly pleased that we have the 
panel that we have before us today.
    So, today the Water and Wildlife Subcommittee is convening 
a field hearing to examine the newly signed Chesapeake Bay 
Watershed Agreement, signed by the Chesapeake Bay Watershed 
partners on June 16th of this year. This new agreement 
represents the next chapter in the longstanding effort of the 
Chesapeake Bay States and the District of Columbia, local 
communities across our region, Federal Government, and dozens 
of stakeholder organizations that are all working together to 
improve the health and resiliency of the Chesapeake Bay.
    It started with Senator Mac Mathias, one of my predecessors 
in the U.S. Senate, who sponsored the congressionally funded 
$27 million, 5-year study to analyze the Bay's rapid loss of 
wildlife and aquatic life. The study, which was published in 
the early 1980's, identified excess nutrient pollution as the 
main source of the Bay's degradation. These initial research 
findings led to the formation of the Chesapeake Bay program as 
the means to restore the Bay.
    A lot has changed since Mac Mathias commissioned that 
study. What remains true today is that the Bay's watershed 
spans 64,000 square miles across six States and the District of 
Columbia, and it's comprised of 150 major rivers and almost 
12,000 miles of shoreline. The Chesapeake Bay region continues 
to represent one of the most biologically diverse ecosystems in 
the country, and, sadly, the Bay continues to face enormous 
pollution challenges, due in large part to the change that 
we've seen in the last 40 years.
    The main change that we've seen in the last 40 years is 
population growth. More people live in the Chesapeake Bay 
Watershed. We've doubled the population in the last 40 years to 
17 million people. The economic value of the Chesapeake Bay has 
grown and is linked to the nearly $1 trillion to our economy. 
The Bay is still, and will always be, an intangible cultural 
symbol for Maryland and the region as a whole. Generations of 
families across Maryland, Delaware, Virginia, and Pennsylvania 
have grown to identify their lifestyle and build livelihoods 
around the bounty of the Chesapeake Bay.
    Chesapeake Bay is the largest estuary in the northern 
hemisphere. The largest. There was a time not too long ago that 
the Bay was the most productive estuary in the world, but 
physical changes in the region's landscape resulted from 
population growth and economic progress has changed the 
hydrological composition of the Bay and its tributaries. A 
balance can and must be found. Part and parcel to achieving 
this balance of economic and population growth with a 
sustainable and healthy Bay is the plan put forward in the 
Chesapeake Bay Agreement.
    The development of sound policies to restore the Chesapeake 
Bay has been a top priority of mine over the course of my 
career in the U.S. Congress. I've been fortunate to have great 
partners in Congress representing the base States. And I want 
to underscore that. We are very blessed, in all of the States 
that are in the Chesapeake Bay Watershed, to have partners in 
both the House and Senate who have made a priority of the 
Chesapeake Bay and have initiated a lot of programs and 
opportunities along the way to supplement the Chesapeake Bay 
program. Whether it's in the water resources bill or whether 
it's in the farm bill, we have found ways to buildupon the 
tools available to help in the Chesapeake Bay.
    President Obama's May 2009 Chesapeake Bay Executive Order 
recognized the national interest in restoring the Chesapeake 
Bay and improving coordination and restoration efforts because 
of the wide-ranging involvement of different departments and 
agencies of the Federal Government. The coordination of the 
seven jurisdictions, hundreds of local communities, seven 
Cabinet-level Federal departments, the Chesapeake Bay 
Commission and stakeholders of all stripes have necessitated 
the development of the Chesapeake Bay Watershed Agreement to 
affirm the conservation goals of everyone involved in this 
effort.
    I want to stress the importance of the broad involvement of 
all stakeholders. The key to this is that all stakeholders need 
to be involved. We have to have a transparent process. And we 
have to be balanced in the way that we go about dealing with 
the problems. There is no one answer to the health of the 
Chesapeake Bay.
    Nutrient pollution and sediment and agriculture activities 
in the rural parts of our region need to be better controlled. 
As well as storm runoff from lawns and roads, nutrients and 
treated wastewater and the general loss of impervious surfaces 
in urban areas also need to be better controlled. In other 
words, there's not one single source. We need to have a 
coordinated program.
    The Bay Agreement outlines a comprehensive approach to 
continuing the efforts to restore the Bay. The Agreement is an 
outline of goals and outcomes that complement and establish 
regulatory requirements and will help all responsible parties 
meet their obligations. The Chesapeake Bay Program Partnership 
was formed in 1983, when the Governors of Maryland, 
Pennsylvania, and Virginia, and the mayor of the District of 
Columbia, the chair of the Chesapeake Bay Commission, and the 
EPA signed the first Chesapeake Bay Agreement. For more than 30 
years, these entities have remained committed to the goal of 
restoring the Chesapeake Bay. As the science has determined and 
the interest in the Bay's stewardship has broadened, this 
partnership has expanded to a basinwide effort, where all six 
States of the Basin are now parties to the Agreement. Working 
together to achieve the various goals of the agreement is what 
will help ensure the Chesapeake Bay we'll leave for our 
children is healthier tomorrow than it is today.
    The Agreement does not--does acknowledge that the 
Partnership cannot address every goal in the Agreement 
immediately. Certainly, some of these goals will take longer to 
realize, but all goals are achievable. The Agreement wisely 
suggests that action be taken in a strategic, inclusive, and 
cost-effective manner. That's very important. The principles 
laid out in the Agreement, I want to acknowledge the 
Partnership's commitment to transparency and consensus-
building. The goals of the agreement deal with issues like 
natural land preservation, blue crab management, nutrient 
pollution reductions, and others. These aren't easy subjects, 
but we have to use transparency, and we have to try to develop 
consensus. Stakeholders must be involved in achieving these 
goals, need to feel the process and the weight of actions are 
being prescribed in a fair and open manner.
    Restoring the iconic Maryland blue crab is important, for 
so many reasons. Unfortunately, this year's crop population is 
stunningly low. The Agreement sets the goal of maintaining a 
population of 215 million female adult crabs through 2025. Blue 
crabs are a vital part of the food chain throughout the Bay's 
ecosystem, and they are at the heart of the Mid-Atlantic 
multibillion-dollar seafood industry.
    Wetland restoration is also critically important for flood 
protection and water quality improvements. And I'm glad to see 
that the Agreement has several specific aspects in regards to 
wetland conservation. Reauthorizing the North American Wetlands 
Conservation Act would also help, which recently received a 
unanimous support in the Environment and Public Works 
Committee.
    And programs like the Corp's Chesapeake Bay Ecosystem 
Restoration Programs, the farm bill's Regional Conservation 
Partnership Programs all help in the effort.
    The Agreement is--aims to open up an additional 1,000 
stream miles for fish passage. That's also an important thing. 
There are many, many other provisions in the Agreement that's 
pretty specific. There are some areas that are not as specific, 
and I'm going to have a chance, I hope, to question as to why 
are we specific here, but not specific there? Again, fairness 
and balance is important in order to get the type of universal 
support that we need to move this agreement forward.
    There are many other important components. And again, we'll 
touch on them during the hearing. But, last, I want to express 
my appreciation for the final Agreement's inclusion of two 
separate sets of goals and outcomes related to toxic 
contaminants and climate change. Reducing the presence of--or 
improving the secure storage of toxic chemicals that are in use 
around the watershed is a growing problem. Now, I know that the 
problem in West Virginia, Charleston, was not in the Chesapeake 
Bay Watershed, but it did highlight the danger that we have in 
watersheds due to chemical storage. And I was glad to see that 
the Agreement did include the toxic issues.
    Adapting to the effect of climate change needs to be a 
priority in our region. Rising sea level poses a threat to the 
hundreds of Chesapeake Bay communities and millions of people 
that live on the shores of the Bay.
    So, all these issues are critically important. We must 
adapt our water infrastructure to handle the effects of more 
intense weather. We know that's a reality. And, quite frankly, 
there seems to be more bipartisan agreement in Congress on 
adaptation, and that's an area where I hope we can make some 
progress.
    The Agreement is an important step forward in restoring the 
Chesapeake Bay. Billions has been spent and progress has been 
made, but a resource as large and fragile that faces 
unprecedented pressure is going to continue to take increased 
resources and attention to restore and protect for future 
generations.
    My commitment to the Bay has never been stronger and will 
continue to work for the people of my State to protect this 
incredibly important resource for Maryland.
    We are really pleased to have a distinguished panel with us 
who can, I hope, help us better understand the new agreement 
and how we can all work together to improve the Bay.
    First, there is a statement from Senator Vitter, the 
ranking Republican on the Environment and Public Works 
Committee. And, without objection, since there's no one else 
here to object, that will be made part of our record.
    [The information referred to follows:]

             Statement of Hon. David Vitter, U.S. Senator 
                      from the State of Louisiana

    Mr. Chairman, I would like to thank you for calling today's 
hearing. I would also like to thank our witnesses for 
testifying before the Subcommittee on Water and Wildlife.
    Standing alone, the June 16, 2014 Chesapeake Bay Watershed 
Agreement (Agreement) appears worthy of celebration. The 
Agreement establishes several laudable principles that are 
intended to serve as a framework for the continued work on the 
Chesapeake Bay Program. These principles include collaboration, 
transparency, science-based decisionmaking, and a pledge to 
work closely with local governments in pursuing Chesapeake Bay 
restoration efforts. Given these commitments, it may be 
difficult to imagine anyone having reservations about the 
Agreement, especially when one also considers that the 
Agreement is apparently a voluntary accord between the 
Chesapeake region states and the Federal Government.
    However, the Agreement before the Subcommittee today cannot 
be examined in a vacuum. If we are to understand helpful ideas 
or potential hurdles to achieving the goals of the 2014 
Agreement, we should be mindful of the history associated with 
past Chesapeake Bay agreements. In my opinion, and in light of 
the regulatory developments which occurred after the Chesapeake 
2000 Agreement, any strategy regarding the 2014 Agreement 
deserves caution and careful deliberation.
    The Chesapeake 2000 Agreement was similar to the 2014 
Agreement before the Committee today. Like the 2014 Agreement, 
the Chesapeake 2000 Agreement contained voluntary commitments 
and goals for the protection and restoration of the Chesapeake 
Bay. Following this agreement, EPA in 2003 developed regional 
criteria guidance for water quality standards for the 
Chesapeake Bay. These criteria led several Chesapeake Bay 
states to adopt new water quality criteria, and between 2004 
and 2006 the seven Chesapeake watershed jurisdictions committed 
to ``Tributary Strategies'' so that the Chesapeake Bay could 
meet water quality goals. Thanks to these cooperative efforts, 
which were supported by environmental groups, local 
governments, agricultural organizations, and other 
stakeholders, the Chesapeake Bay was well on its way to 
achieving the goals that had been established in the Chesapeake 
2000 Agreement. In fact, as we know from U.S. Geological Survey 
research on the time lag between taking conservation measures 
and seeing water quality changes, the improvements we are 
seeing today are as a result of those voluntary efforts taken 
years ago.
    But this collaborative progress was interrupted in 2009, 
when the Chesapeake Bay Foundation and other plaintiffs sued 
EPA, claiming that progress was too slow and the voluntary 
goals in the Chesapeake 2000 Agreement were in fact mandatory 
duties under the Clean Water Act. In other words, rather than a 
mutual commitment to work together on Chesapeake Bay 
restoration issues, the lawsuit painted the Chesapeake 2000 
Agreement as containing inflexible standards which bound the 
Chesapeake states to a nonnegotiable mandate.
    Unfortunately, even though the scientific evidence undercut 
the claims of lack of progress, the Obama administration 
acquiesced to this counterproductive approach. In a highly 
questionable 2010 ``sue and settle'' agreement that ended the 
CBF litigation, EPA agreed to establish a Total Maximum Daily 
Load (Bay TMDL) for nitrogen, phosphorous, and sediment flow 
into the Chesapeake Bay. But when EPA finalized the Bay TMDL 
later in 2010, the final product was an unprecedented Federal 
regulation that could not have been envisioned when the 
Chesapeake 2000 Agreement was signed. EPA's TMDL is a costly 
command and control mechanism that deprives State and local 
governments of their traditional land use decisionmaking 
authority. EPA has purported to dictate not only the total 
amount of nitrogen, phosphorous, and sediment that can flow 
into the Chesapeake Bay, but, by allocating those loads in 
excruciating detail and crediting only the load reduction 
actions that are included in its Chesapeake Bay Watershed 
Model, EPA also dictated the manner in which individual 
companies and sectors within the economy must comply with the 
total load limitations.
    EPA's Bay TMDL has enormous repercussions for private 
landowners, small businesses, and local governments throughout 
the Chesapeake Bay region. According to the University of 
Maryland's School of Public Policy, implementation of the Bay 
TMDL could cost as much as $50 billion between 2010 and 2025. 
Left unchecked, the TMDL could represent a national precedent 
that would force State and local officials across the country 
to cede their land use authority to EPA. These concerns led me 
to sign on to an amicus brief with several other Members of 
Congress urging the Third Circuit Court of Appeals to 
invalidate this intrusive regulation.
    The lesson of the Chesapeake 2000 Agreement and Bay TMDL is 
that certain groups and organizations are all too willing to 
turn a cooperative agreement into a Federal mandate, by 
whatever means necessary. As Peyton Robertson, the Director of 
the National Ocean and Atmospheric Administration's Chesapeake 
Bay Office who is here as a witness today, once said, the Bay 
TMDL ``fundamentally altered the nature'' of the Chesapeake Bay 
Program, noting that ``[y]ou can't reasonably argue that it is 
a voluntary approach anymore.''
    Thus, although the June 16, 2014 Chesapeake Bay Watershed 
Agreement is nominally voluntary, certain questions must be 
asked with the understanding that history tends to repeat 
itself. For example, by establishing the Agreement, have the 
states inadvertently laid the groundwork for a future lawsuit 
against EPA? Would EPA settle such a future lawsuit by forcing 
State and local officials to devote more of their limited 
resources toward unfunded Federal mandates? To what extent does 
this Agreement impede current voluntary efforts toward 
Chesapeake Bay restoration?
    I am glad there will be a robust discussion of these 
issues, and I appreciate Senator Cardin holding this hearing 
today. I also would like to thank Maryland State Senator 
Stephen Hershey for serving as a minority witness. Senator 
Hershey understands firsthand how Federal regulation can affect 
the land use decisionmaking authority of State and local 
officials. I look forward to the testimony of Senator Hershey 
and our other witnesses.

    [The prepared statement of Senator Cardin follows:]

          Statement of Hon. Benjamin L. Cardin, U.S. Senator 
                       from the State of Maryland

    Today the Water and Wildlife Subcommittee is convening a 
field hearing to examine the newly signed Chesapeake Bay 
Watershed Agreement signed by the Chesapeake Bay Watershed 
Partners on June 16, 2014. This new agreement represents the 
next chapter in the longstanding effort of Chesapeake Bay 
States, and the District of Columbia, local communities across 
our region, the Federal Government, and dozens of stakeholder 
organizations that are all working together to improve the 
health and resiliency of the Chesapeake Bay.
    In the late 1970's, U.S. Senator Charles ``Mac'' Mathias 
(R-MD), sponsored a congressionally funded $27 million, 5-year 
study to analyze the Bay's rapid loss of wildlife and aquatic 
life. The study, which was published in the early 1980's, 
identified excess nutrient pollution as the main source of the 
Bay's degradation. These initial research findings led to the 
formation of the Chesapeake Bay Program as the means to restore 
the Bay.
    A lot has changed since Sen. Mathias commissioned the study 
and yet still a great deal remains the same.
    What remains true today is that the Bay's watershed spans 
64,000 square miles across six states and the District of 
Columbia and is comprised of 150 major rivers and 11,684 miles 
of shoreline. The Chesapeake Bay region continues to represent 
one of the most biological diverse ecosystems in the country. 
And sadly, the Bay continues to face enormous pollution 
challenges, due in large part to what's changed in the last 40 
years.
    While we have made great strides to improve pollution 
reduction from point sources of pollution, non-point sources of 
pollution remain a major challenge. That stems in large part 
from the fact that the population in the region has more than 
doubled over the last 40 years and is now home to 17 million 
people.
    The economic value of Chesapeake Bay has grown and is 
linked to nearly $1 trillion for the Mid-Atlantic region.
    The Bay is still and will always be an intangible cultural 
symbol for Maryland and the region as a whole. Generations of 
families across Maryland, Delaware, Virginia and Pennsylvania 
have grown to identify their lifestyle and built livelihoods 
around the bounty the Chesapeake Bay has to offer.
    The Chesapeake Bay is the largest estuary in the Northern 
Hemisphere. There was a time, not too long ago, that the Bay 
was the most productive estuary in the world, but physical 
changes to the region's landscape resulting from population 
growth and economic progress has changed the hydrological 
composition of the Bay and its tributaries. A balance can and 
must be found. Part and parcel to achieving this balance of 
economic and population growth with a sustainable and healthy 
Bay is the plan put forward in the Chesapeake Bay Agreement.
    The development of sound policies to restore the Chesapeake 
Bay has been a top priority of mine over the course of my 
career in Congress. I have been fortunate to have great 
partners in Congress representing the Bay states. Together we 
have worked to develop effective conservation and ecosystem 
restoration programs in the Farm Bill, WRDA, the Clean Water 
Act and elsewhere in law supporting a variety of conservation 
and ecosystem restoration approaches across multiple sectors.
    The Army Corps, USDA, and EPA are not the only Federal 
agencies doing important Chesapeake Bay restoration work. NOAA, 
USGS, The US Fish and Wildlife Service, and the National Park 
Service are also important Federal partners in the broader 
effort to restore the Bay.
    President Obama's May 2009 Chesapeake Bay Executive Order 
recognized the national interest in restoring the Chesapeake 
Bay and improving coordination of restoration efforts because 
of wide ranging involvement of different departments and 
agencies of the Federal Government.
    The coordination of seven jurisdictions, hundreds of local 
communities, seven cabinet level Federal departments, the 
Chesapeake Bay Commission and stakeholders of all stripes has 
necessitated the development of the Chesapeake Bay Watershed 
Agreement to affirm the conservation goals of everyone involved 
in this effort.
    I want to stress the importance of broad involvement of all 
stakeholders in the effort to restore the Chesapeake Bay. The 
populations living and working in the Bay watershed must 
realize that we are all in this together whether we like it or 
not.
    Nutrient pollution and sediment from agricultural 
activities in the rural parts of the region need to be better 
controlled, just the same as stormwater runoff from lawns and 
roads, nutrients in treated wastewater, and the general loss of 
pervious surfaces in urban areas also need to be better 
controlled. In other words no one source or single sector bears 
all the blame for degraded water quality in the Bay. If we all 
do our part we will see progress.
    The Bay Agreement outlines a comprehensive approach to 
continuing the efforts to restore the Bay. The agreement is an 
outline of goals and outcomes that compliments established 
regulatory requirements and will help all responsible parties 
meet their obligations.
    The Chesapeake Bay Program partnership was formed in 1983 
when the Governors of Maryland, Pennsylvania and Virginia, the 
mayor of DC, the Chair of the Chesapeake Bay Commission and the 
EPA signed the first Chesapeake Bay Agreement. For more than 
thirty years these entities have remained committed to the goal 
of restoring the Chesapeake Bay. As the science has determined, 
and the interest in Bay stewardship has broadened, this 
partnership has expanded to a basin wide effort where all six 
states of the basin are now party to the agreement.
    This watershed approach is incredibly important, because as 
I mentioned before, there is no single source, no single state, 
no single sector that bears sole responsibility for restoring 
the Bay. Working together to achieve the various goals of the 
agreement is what will help ensure that the Chesapeake Bay we 
leave for our children is healthier tomorrow than it is today.
    The Agreement does acknowledge that the partnership cannot 
address every goal in the Agreement instantly. Certainly some 
goals may take longer to realize than others. All the goals are 
achievable.
    The agreement wisely suggests that action be taken in a 
strategic, inclusive and cost effective manner.
    Of the principles laid out in the Agreement I want to 
acknowledge the partnership's commitment to transparency, and 
consensus building. The goals of the agreement deal with very 
sensitive issues like natural land preservation, blue crab 
management, nutrient pollution reduction and others.
    Stakeholders must be involved in achieving these goals need 
to feel the process and weight of the actions being prescribed 
is fair and open.
    Restoring the iconic Maryland Blue Crab is important for so 
many reasons. Unfortunately, this year's crab population is 
stunningly low. The Agreement sets the goal of maintaining a 
population of 215 million female adult crabs through 2025. Blue 
Crabs are a vital part of the food chain throughout the Bay's 
estuarine ecosystem and they are at the heart of the Mid-
Atlantic's multi-billion dollar seafood industry.
    Wetlands restoration is critical to flood protection and 
water quality improvement as well as providing important duck 
habitat and fish spawning habitat. Reauthorizing the North 
American Wetland Conservation Act, that I am a cosponsor of and 
was happy to see the Senate Environment and Public Works 
Committee reported with unanimous support, will provide 
additional financial and technical assistance to help achieve 
improved wetlands conservation in the Chesapeake Bay watershed.
    Programs like NAWC, the Corps' Chesapeake Bay Ecosystem 
Restoration Program, and the Farm Bill's Regional Conservation 
Partnership Program along with numerous State efforts to 
restore hundreds of thousands of wetland habitat acres across 
the region.
    The Agreement aims to open up an additional 1,000 stream 
miles to fish passage. The revisions to the Continuing 
Authorities Program in WRDA will help fund critical dam removal 
projects around the watershed that will improve fish passage. 
If the decisions to remove dams and other barriers to fish 
passage are strategically made this goal could be far exceeded.
    The Agreement sets the goal of restoring 900 miles of 
riparian forest per year and expand the urban tree canopy by 
2,400 acres by 2025. I think we should strive to exceed this 
goal. To put it in perspective, the MS4 area of Washington, DC 
is about 12,000 acres, and there is a requirement in its MS4 
permit for an average of 4,150 trees to be planted annually in 
that area. That means that in DC's MS4 area alone, about 755 
acres of tree coverage will be accomplished per year. 
Increasing the number of trees in urban areas help improves the 
quality of life and character of urban communities and trees' 
are so important to reducing stormwater runoff in urban areas.
    The agreement sets the goal of protecting an additional two 
million acres of lands throughout the watershed. This is 
critically important to stem poor land-use planning and sprawl 
while also establishing lands that serve as critical water 
quality improvement mechanisms.
    There are many other important components to the Agreement 
that we will touch on during this hearing, but Last I want to 
express my appreciation for the final Agreement's inclusion of 
two separate sets of goals and outcomes relating to toxic 
contaminants and climate change.
    Reducing the presence or improving the secure storage of 
toxic chemicals that are in use around the watershed is a 
growing problem. While the January chemical spill in West 
Virginia was not in the Chesapeake Bay watershed, the incident 
shone a spotlight on the risk facilities like the one that 
failed in Charleston pose to our great water bodies. In the 
Chesapeake Bay watershed there are dozens of chemical storage 
facilities, and industrial activities that use toxic chemicals 
on a regular basis. I am so glad that improving the security 
and reducing the contamination risks from these facilities are 
parts of the agreement.
    Adapting to the effects of climate change needs to be a 
priority for our region. Rising sea levels pose threats to the 
hundreds of Chesapeake Bay communities and millions of people 
that live on the shores of the Bay.
    Aquatic acidification poses a long term threat to all 
aquatic species including Blue Crabs, Oysters, Rockfish, 
Sturgeon, Menhaden and other hallmark species of the Bay. If 
the fish and shellfish go so does a way of life for many 
thousands of families.
    And we must adapt our water infrastructure to handle the 
effects of more intense weather events in the Bay region to 
reduce the water quality impacts of these events and to protect 
individuals' property.
    The agreement is an important step toward to restoring the 
Chesapeake Bay. Billions have been spent and progress has been 
made, but a resource a large and fragile that faces 
unprecedented pressures is going to continue to take increased 
resources to restore and protect for future generations.
    My commitment to the Bay has never been stronger and will 
continue to work for the people of my State to protect this 
incredibly important resource.

    Senator Cardin: We are pleased--and let me just introduce 
you in the order that I would ask that you would make some 
opening statements. Your entire statements will be made part of 
our record. You may proceed in the manner in which you wish. 
And we will leave time for questions in regards to matters from 
the Chair.
    We have Mr. Nick DiPasquale, the director of the Chesapeake 
Bay Program at the Environment and Public--in the EPA, 
Environmental Protection Agency.
    Nick, thank you very much for being here.
    Mr. Peyton Robertson, the director of the NOAA Chesapeake 
Bay Office, a frequent visitor to us in Annapolis.
    And we appreciate very much having you here.
    The Honorable Mary Ward, the Secretary of Natural Resources 
of the State of Virginia. And we very much appreciate 
Virginia's participation in the Chesapeake Bay Agreement.
    The Honorable Ronald Miller, a Representative from the 
Commonwealth of Pennsylvania, the House of Representatives in 
Pennsylvania.
    It's wonderful to have you here.
    And the current chair of the Chesapeake Bay Commission, I 
know Ann Swanson is also here, the executive director of the 
Chesapeake Bay Commission.
    The Honorable Mary Ann Lisanti, councilwoman from Harford 
County. I know very well the former chair of the local 
government advisory committee, and hopefully will give us the 
view from local government.
    It's a real pleasure to have our local host here, The 
Honorable Steve Hershey, a Maryland Senator in the Maryland 
State Senate representing the Upper Shore, his district.
    But, thank you for your hospitality in allowing us to use 
your facilities today.
    We'll start with Nick DiPasquale, the director of the 
Chesapeake Bay Program at the Environmental Protection Agency.

STATEMENT OF NICK DiPASQUALE, DIRECTOR, CHESAPEAKE BAY PROGRAM, 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. DiPasquale: Good afternoon, Senator. And I appreciate 
the opportunity to talk before the subcommittee today.
    My name is Nick DiPasquale, and I'm director of the EPA 
Chesapeake Bay Program Office here in Annapolis.
    The--Section 117 of the Clean Water Act actually created--
was created by Congress in the Chesapeake Bay Program. It is a 
comprehensive, cooperative effort by Federal, State, local 
governments, nongovernmental organizations, academics, and 
other entities that share the mission of restoring and 
protecting the Chesapeake Bay and the Watershed.
    And I was struck by your comments with regard to Senator 
Mathias and the tenets that were set out: being inclusive, 
having all partners at the table, using science. Those are the 
same principles that guide us today in the restoration effort, 
so they live on 30 years later.
    The partnership includes original signatories to the 
Chesapeake Bay Agreements: Maryland, Pennsylvania, Virginia, 
the District of Columbia, the Chesapeake Bay Commission, a 
triState legislative assembly representing Maryland, Virginia, 
and Pennsylvania, and the EPA on behalf of the Federal 
Government. With the signing of the new Chesapeake Bay 
Watershed Agreement in June, I'm pleased to say it now includes 
the headwater States of Delaware, New York, and West Virginia 
as full partners in the Agreement.
    In 2011, both the Chesapeake Executive Council and the 
Federal Leadership Committee acknowledged the need to integrate 
the goals, outcomes, and actions of the Chesapeake Bay Program, 
as detailed in Chesapeake 2000, the previous agreement, with 
those set forth in the Federal 2010 Chesapeake Bay Executive 
Order Strategy, which was the outgrowth of the President's 
Executive Order 13508. The partners also recognized a new 
agreement was needed to reflect improvements in our scientific 
knowledge, changes in laws, regulations, and policies over the 
past decade and a half, and the evolutions that have taken 
place within the partnership, including the Chesapeake Bay 
total maximum daily load and the watershed implementation 
plans, the development of those plans.
    Beginning in 2012, the partners set the course for a new 
watershed agreement that would be developed through an open, 
cooperative, and collaborative effort. The partnership goal 
implementation teams and workgroups comprised of State, 
Federal, and local representatives from all jurisdictions in 
the Watershed began developing draft goals and measurable 
outcomes for the partnership. Each goal and outcome was 
developed using the best data and science available, including 
past and current performance.
    Simultaneously, internal workgroups and the partnership's 
principal staff committee developed a core of--a core set of 
principles by which the program will operate and be accountable 
for its work and its progress. Justification documents that 
explain the importance of each outcome, how it was developed, 
how baselines were determined, and who was involved in the 
development of the outcome are available on our Website and are 
really there to inform the public on how we came to the 
outcomes that we developed.
    To ensure transparency and receive valuable input from 
citizens of the Watershed, the partners held public meetings 
and published two draft documents. One was a framework document 
that laid out the basic structure for the agreement. And then, 
the second public document was a full written text document, 
both of which were put out for public review and comment. And 
the comments that we received from the public had a direct 
impact on the final outcome of the agreement.
    The new Chesapeake Bay Watershed Agreement was signed on 
June 16th. It's the most comprehensive, inclusive, 
collaborative, and goal-oriented agreement the Chesapeake Bay 
Watershed has ever had. And witnessing the process myself, it 
was heartening to see that people came to the table informed 
and ready to have discussions and ready to come to compromise 
on issues that were difficult to achieve.
    It identifies the Partnership's collective commitments for 
restoring and protecting the Watershed through a set of 10 
overarching goals and 29 specific outcomes. The goals 
articulate the high-level aspects of the partners' vision, 
while the outcomes express specific time-bound, measurable 
targets that directly contribute to achieving each of those 
goals. These goals and outcomes are clearer and better defined 
than in previous agreements and allow for greater flexibility 
through the adoption of an adaptive management decisionmaking 
process, one that's based on the application of scientific 
process and continual analysis of monitoring data.
    The goals and outcomes address the partners' continuing 
efforts to improve water quality as well as to promote 
sustainable fisheries, vital habitats, healthy watersheds, 
stewardship, land use and conservation, as well as public 
access. In addition, the goals also deal with a variety of 
other issues, such as environmental literacy, toxic 
contaminants, and climate resiliency for the Bay ecosystem as 
they buildupon the strength of our diverse citizenry and 
support of local governments, a call to action to nearly 18 
million people in the Watershed that they call home.
    The partners agreed to develop and finalize management 
strategies for each of the outcomes within 1 year. The 
strategies, to be developed by the goal teams, will articulate 
the overarching and specific actions necessary to achieve the 
goals and outcomes by 2025. That happens to coincide with the 
deadlines that are contained in the Total Maximum Daily Load. 
They will also summarize the means for accomplishing each 
outcome, as well as the methods for monitoring, assessing, 
reporting and coordinating actions among the partners and 
stakeholders.
    Each management strategy is expected to include key 
elements or sections that provide details on outcomes and 
baselines, factors influencing the ability to meet the goal, 
current efforts and gaps, management approaches, plans for 
local engagement, programs for monitoring and assessing 
progress, and a plan for managing restoration efforts 
adaptively. Each strategy will include a 2-year work-plan 
section that succinctly summarizes for each partner and select 
stakeholder the specific commitments, actions, and resources to 
reach the 2-year target for that particular outcome. Together, 
these elements comprise the adaptive management system that the 
partnership will use to ensure implementation, measure 
progress, make adjustments when and where they are necessary 
and appropriate.
    The goal teams are expected to submit draft strategies to 
the management board in early 2015. To help ensure progress 
remains on track, the goal teams are expected to reevaluate 
every 2 years and update strategies, as necessary, with 
attention to changing environmental and economic conditions. 
Partners may identify the policy changes to address these 
conditions and minimize obstacles to achieve the outcomes.
    The public will be able to hold partners accountable for 
their actions due to a high level of transparency that hasn't 
been seen in previous agreements. The signatory partners agree 
to identify their intent to participate in the development of 
each management strategy within 90 days of the Agreement 
signing. On September 16th, the partnership will publish a 
table that identifies the signatory partners who have committed 
to the development of the 29 management strategies. We will 
also provide information on how the public and interested 
parties can participate in the process.
    To ensure broad public input and support, the partners 
agree to conduct outreach to stakeholders, to engage them in 
the development process, and to make information about the 
management strategy development available online and through 
public meetings, including stakeholder input periods for the 
final adoption of each of the management strategies. This 
information, likewise, will be posted on the Websites, and 
we're providing a process where folks can sign up to receive 
information on each of those outcomes.
    In closing, EPA and the Chesapeake Bay program partners 
remain committed to working collaboratively with all 
stakeholders as we begin to implement the new agreement and 
develop the management strategies. The new agreement really 
represents a next-generation agreement that builds upon 
previous agreements and moves our restoration efforts 
aggressively ahead.
    I want to thank you for the opportunity to testify today, 
and I welcome any questions you may have.
    [The prepared statement of Mr. DiPasquale follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
  
    Senator Cardin: Mr. DiPasquale, thank you very much for 
your testimony.
    We'll now go to Mr. Robertson.

 STATEMENT OF PEYTON ROBERTSON, DIRECTOR, NOAA CHESAPEAKE BAY 
                             OFFICE

    Mr. Robertson: Good afternoon, Chairman Cardin. Thank you 
for the opportunity to testify today on the Chesapeake Bay 
Watershed Agreement. My name is Peyton Robertson, and I'm the 
director of NOAA's Chesapeake Bay Office.
    NOAA is the Federal lead for several goals and outcomes of 
the new Agreement. NOAA envisions a healthy, sustainable, and 
resilient Chesapeake Bay with thriving commercial and 
recreational opportunities and habitats to provide a range of 
benefits for fish and wildlife. The Chesapeake Bay Agreement 
will drive this vision toward reality. Today, I will highlight 
several areas where we're already making progress. Continuing 
to achieve measurable results under the agreement will only 
happen with sustained support from Congress.
    First, I'd like to speak about the blue crab population. 
The blue crab is an iconic species in Chesapeake Bay. And, 
while blue crab populations can be highly variable from year to 
year, over the last decade populations in the Bay reached some 
of their lowest numbers ever, due in part to over-exploitation 
and habitat depletion.
    Through the Chesapeake Bay Program, NOAA chairs the 
Sustainable Fisheries Goal Implementation Team. In 2008, the 
Chesapeake Bay Stock Assessment Committee, a workgroup of the 
Goal Team, recommended female-specific harvest regulations to 
begin rebuilding the blue crab population. Provision of this 
population target began in 2011 with the NOAA-funded Benchmark 
Stock Assessment, resulting in new female-specific reference 
points that drive crab management decisions today. This year, 
the population of 69 million adult female blue crabs is below 
the 70 million threshold set by State fishery managers, and, as 
a result, Bay jurisdictions agreed to a 10-percent harvest 
reduction and established a July to-July fishing season.
    However, fishing pressure is not the only challenge 
affecting blue crabs. Over-wintering mortality, predation, 
cannibalism, poor water quality, and habitat loss are all 
factors that affect crabs. NOAA's Chesapeake Bay Interpretive 
Buoy System observed lower water temperatures from February to 
March of this year, and this overall persistence of colder 
water could partly explain the estimated blue crab over-
wintering mortality.
    Next, I'd like to speak about our efforts to support 
tributary-scale oyster restoration. The native eastern oyster 
has declined dramatically over the past century due to over-
fishing, habitat loss and degradation, and disease. Oyster 
populations are currently estimated to be at less than 1 
percent of historic highs, baywide, and substantial restoration 
efforts are necessary for population recovery and improving the 
Bay's fish, habitat, and water quality.
    In Maryland, three tributaries and oyster sanctuaries have 
been selected for restoration, including Harris Creek, the 
Little Choptank, and Tred Avon Rivers. In Harris Creek, 377 
acres are currently being restored, making this the largest 
single oyster restoration effort ever undertaken. We expect to 
finish that first tributary by the end of 2015. In Virginia, 
the Lafayette, Elizabeth, and Piankatank Rivers have similarly 
been targeted for restoration efforts.
    The initial results of these efforts are very promising. 
The survival rate of oysters just after being planted has 
increased 100 percent. We have--attribute this marked 
improvement to better site selection informed by NOAA's C-4 
habitat mapping and assessment products. NOAA and the State of 
Maryland recently found oyster population densities on restored 
sites of 49 oysters per square meter, a level consistent with 
success metrics developed by NOAA and our partners. NOAA and 
the Army Corps of Engineers invested over $14 million in Fiscal 
Year 2014 to restore these tributaries.
    A third area I'd like to note is NOAA's support of large-
scale research to assess how different shoreline types, such as 
rip rap, bulkheads, or natural shorelines, affect adjacent 
coastal ecosystems. An important goal of the agreement is to 
better inform decisionmakers and provide them the tools they 
need. And NOAA is doing that in the Bay region. Our coastal 
zone managers can utilize this new science to more thoughtfully 
evaluate shoreline alternatives, including the use of more 
comprehensive ecosystem-based approaches. The new agreement 
also supports NOAA's priority to provide the intelligence 
community's need to ensure preparedness and resilience, 
allowing them to withstand adverse impacts from changing 
climate conditions.
    Now let me highlight our work addressing critical habitats 
for Bay species. Dams and other obstructions in the Bay 
Watershed block the natural migration of fish to historic 
spawning habitats. By removing these physical obstacles and 
increasing river connectivity, keystone species like American 
shad and river herring are able to return to their native 
spawning grounds. Since 1988, NOAA and our partners have opened 
2,807 miles of habitat to migratory and resident fishes in the 
Chesapeake Bay.
    Finally, I'd like to note that NOAA's Bay Watershed 
Education and Training, or BWET, program is also instrumental 
to realizing the Agreement's goals. NOAA is ensuring that 
students graduate with the skills necessary to protect, 
restore, and conserve the Bay, and launch them into successful 
science-and math-related careers. NOAA's modest investments of 
approximately $2-and-a-half million annually for education in 
the Chesapeake Watershed have reached almost a half-million 
students and created model programs.
    NOAA's science, service, and stewardship mission touches 
the lives of every American. We're proud of our role of 
conserving and protecting natural resources in the Bay through 
the Chesapeake Bay Agreement. Continued support for the 
programs to strive in this testimony is critical to achieving 
measurable results for the Agreement's goals.
    And so, thank you for the opportunity to testify today, and 
I'll be happy to answer any questions.
    [The prepared statement of Mr. Robertson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Cardin: Well, thank you, Mr. Robertson.
    We'll now go to The Honorable Molly Ward.

 STATEMENT OF HON. MOLLY WARD, SECRETARY OF NATURAL RESOURCES, 
                       STATE OF VIRGINIA

    Ms. Ward: Good afternoon. On behalf of Governor McAuliffe, 
thank you for inviting me to be part of this hearing on the 
2014 Chesapeake Bay Agreement. My name is Molly Ward, and I'm 
the Secretary of Natural Resources for the Commonwealth of 
Virginia.
    Virginia has been an active partner in the Chesapeake Bay 
Program since its establishment in 1983, and for good reason. 
Of the almost 12,000 miles of tidal shoreline that surround the 
Bay and its tributaries, Virginia is home to 7,000 of those 
miles. Upon taking office in January 2014, Governor McAuliffe 
appointed a Deputy Secretary specifically for the Chesapeake 
Bay, Russ Baxter, and the administration immediately began the 
review of the new Agreement. Even before the end of the public 
comment period, Governor McAuliffe committed to including new 
goals for toxics and climate change.
    The Bay is a highway for commerce and a draw for recreation 
and tourism that is very important to the Commonwealth's 
economy. Just 2 weeks ago, Governor McAuliffe announced the 
establishment of the Virginia Oyster Trail that will promote 
Virginia's oysters industry along the--along with Virginia 
wineries and businesses along the trail. We harvested over a 
half-million bushels of oysters in the Commonwealth last year, 
up from 23,000 bushels in 2001.
    On the point-source side, we have invested over 1.6 billion 
in State and local money on nutrient upgrades to sewage 
treatment plants in the Bay Watershed. We established an 
innovative nutrient trading program that provided for load caps 
for each facility and each river basin 4 years before the 
establishment of the TMDL.
    On the agricultural side, over $200 million in State, 
Federal, and agricultural funds have been invested. In 2011, 
the General Assembly passed legislation that authorized our new 
Resource Management Program, which became effective just this 
past July 1st. The State/Federal agencies, the agriculture 
community, and conservation groups worked together to develop 
the implementing regulations. The program, while voluntary, 
contains rigorous conservation standards and oversight while 
provide a safe harbor from additional regulatory requirements 
during the effective period of each plan.
    On August 25th, Governor McAuliffe visited a farm in the 
Shenandoah to promote the RMP program. He was joined by a 
bipartisan group of members of the General Assembly, leadership 
from the major agricultural and agribusiness organizations in 
Virginia, soil and water conservation districts, and 
environmental organizations, demonstrating the wide, strong 
support for this initiative.
    We are hopeful our proposals for the Regional Conservation 
Partnership Program and the critical conservation area 
components of the farm bill will be favorably reviewed and 
provide needed resources to help fully realize the potential of 
this program. We remain committed to land conservation in 
Virginia, and particularly with regards to water quality and 
Bay access. Despite budget difficulties, we have maintained a 
$100 million land conservation tax credit program, and the 
Governor has been personally committed to pursuing the Rivers 
of the Chesapeake proposal, together with Maryland, 
Pennsylvania, and our Federal and conservation partners. We 
pledge the full attention of the administration to the needs of 
Bay restoration and to be a full and productive partner in this 
new agreement to truly restore and protect this national 
treasure.
    My submitted testimony further details our conservation 
efforts.
    And I want to thank you for having us here today.
    [The prepared statement of Ms. Ward follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Cardin: Thank you very much, Secretary Ward.
    We'll now turn to The Honorable Ronald Miller.

 STATEMENT OF HON. RONALD MILLER, REPRESENTATIVE, PENNSYLVANIA 
                    HOUSE OF REPRESENTATIVES

    Rep. Miller: Good afternoon, Chairman Cardin and members of 
the subcommittee. I am State Representative Ron Miller, of York 
County, Pennsylvania, and I thank you for the opportunity to 
speak to you today as chairman of the TriState Chesapeake Bay 
Commission.
    The Commission is primarily comprised of State legislators 
from Maryland, Pennsylvania, and Virginia. The Commission has 
been a signatory to all of the Chesapeake Bay agreements since 
the first one was signed in 1983. In fact, the Commission 
hosted that meeting at which that first agreement was signed. 
Our Commission, and later the Bay Program, was created because 
my predecessors knew it would take participation and 
coordination across the larger watershed and between the State 
and Federal Governments to clean up the Bay. Without Federal 
support and vigilance, the Chesapeake Bay Program would not be 
the premier restoration effort that it is today. The 
establishment of the Bay Program Office, under Section 117 of 
the Clean Water Act, and the appropriations of funds for 
operations and implementation are critical. We applaud the 
recent and proposed increases in this funding and thank you, 
Senator Cardin and other leaders of our congressional 
delegation who have consistently supported the Bay Program's 
work.
    A key strength of the Bay Program is the reliance on 
science and data to guide our work. Indeed, more data has been 
generated on Chesapeake Bay than any other estuary. Experts 
from the State and Federal Government, universities, private 
industry, and others share information, ask questions, 
coordinate their work, and leverage resources. Each of our Bay 
agreements have influenced, and were influenced by, this 
scientific work. The 1987 agreement set broad nutrient-
reduction goals. Now, through improved modeling, monitoring, 
and a better understanding of how each tributary impacts the 
Bay, we have specific nitrogen, phosphorous, and sediment goals 
for our rivers and State-specific watershed implementation 
plans.
    The Commission's 2013 annual report highlights a few of the 
many legislative victories for the Bay that have been 
accomplished in our three member States as a result of Bay 
agreement commitments. This latest agreement acknowledges that 
we cannot do everything at once, and focuses on key actions 
that will achieve the greatest benefits. It also recognizes 
that participation across the entire Watershed, at all levels 
of government, is necessary to achieve our goals. If we are to 
be truly successful with restoration of the Bay, it will only 
be through the collective efforts of local towns and 
neighborhoods across the Watershed, as well as the whole range 
of local organizations that play a role in educating, 
advocating, and implementing for positive change.
    The role of the Federal Government is no less critical. The 
Chesapeake Bay Stewardship Fund and Clean Water State Revolving 
Fund support local efforts across the Watershed. Farm bill 
programs help our farmers implement cost-effective best-
management practices. And the Chesapeake Bay Gateway Program 
helps connect our citizens with the national treasure of the 
Bay and its tributaries. These programs continue to be 
enormously helpful, and we thank you again for your support.
    Looking forward, we call your attention to the opportunity 
to designate the rivers of the Chesapeake as a funded, large 
landscape initiative under the Land and Water Conservation 
Fund. I know that you, Senator Cardin, and Congressman Moran 
have been leading the fight for this, and we thank you.
    Additionally, the U.S. Army Corps of Engineers is a key 
partner in oyster restoration, wetlands protection, and other 
restoration activities. Recently developed--the Corps has 
recently developed a comprehensive Bay management plan, and we 
thank the Senate for recognizing that the Corps authorities in 
the Water Resources Development Act should be amendment to--
amended to align with this plan. NOAA's Bay Watershed Education 
and Training Program and EPA's Environmental Education Program 
face funding threats, and the Bay Program itself, within EPA 
and under NOAA, need reauthorization. We also look forward to 
the opportunity to discuss how a reauthorized transportation 
bill can promote better storm water management and improve 
fishing and boating access.
    The Federal Government has also been a key voice in the 
call for improved transparency and verification of our work, 
and this new Agreement is a response. Through the development 
of management strategies, specific implementation actions will 
be identified as well as the partners who have committed to 
them. This can include local governments, nongovernmental 
organizations, and private businesses. It will also include our 
agency partners across the Federal Government. But, it is 
equally important to assure that agency budgets and 
authorizations provide the tools and resources that our Federal 
partners need to carry out their commitments under this new 
Agreement and Presidential executive order.
    In summary, the Chesapeake Bay Program is a premier estuary 
restoration effort in the Nation because of its science-based 
approach to policymaking and the strong partnership between 
State and Federal Governments. The new 2014 Chesapeake Bay 
Watershed Agreement seeks to enhance this partnership through 
better engagement with local governments and organizations and 
improved accountability for our work.
    I would like to thank you, Senator, for this opportunity, 
and look forward to being able to answer any questions.
    Thank you.
    [The prepared statement of Rep. Miller follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    Senator Cardin: Well, thank you, Representative Miller.
    We'll now turn to The Honorable Mary Ann Lisanti.

  STATEMENT OF HON. MARY ANN LISANTI, COUNCILMEMBER, HARFORD 
                         COUNTY COUNCIL

    Ms. Lisanti: Thank you, Chairman Cardin, for the 
opportunity to lend my voice to this effort and share my 
experience with local government for the record.
    I offer this testimony today as a legislator, a former city 
manager, and a member and past chairman of the Local Government 
Advisory Committee to the Executive Council, representing 1800 
units of local government in the Chesapeake Bay region.
    At this pivotal moment in the Bay's future and during the 
most challenging of economic times, we have worked to advise 
the Governors of Maryland, Virginia, Pennsylvania, the mayor of 
D.C., and the administrator of the EPA on policy matters 
related to the Chesapeake Bay, and most recently provide input 
to the development of this new--newly signed Bay Agreement.
    Developing one message from the diverse communities has 
been a daunting task. We have fully engaged in this agreement 
and the creation of community-based plans for water quality 
improvement. Our local plans will guide future decisions and 
help each community meet our 2025 goals that have been 
established.
    Overall, we are pleased with the New Chesapeake Bay 
Watershed Agreement, but, notably, we are grateful for the 
acknowledgment of the vital role the local government plays in 
achieving the vision of an economically and environmentally 
sustainable Chesapeake Bay Watershed.
    This Agreement does a good job of acknowledging local 
governments' role in watershed protection and restoration; but 
for implementation to be successful, this simple acknowledgment 
must be translated into effective engagement of local 
government. We must now go beyond acknowledgment and focus on 
achieving outcomes. We must work together to develop management 
strategies that identify the actions, tools, and technical 
support needed to empower local governments. Success really 
depends on all of us approaching this as true partners.
    Although the task of implementation seems complex, our 
message has been simple and united: Let us focus on our waters 
and our towns with projects we know that will produce desired 
outcomes. We, in local government, recognize that Bay 
restoration begins by cleaning every stream, creek, and 
waterway in the Chesapeake Bay region. Clearly, we, as elected 
leaders of counties, cities, townships, and boroughs, are the 
ones who engage the public, direct our staff, and make the 
decisions necessary to improve stormwater management systems 
and sewer treatment plants.
    To better engage local government, Federal, State--Federal 
and State partners must also better understand what drives 
local implementation efforts. For example, in some communities, 
watershed protection and restoration may be driven by the 
simple need to provide--to protect their drinking water. In 
others, it may be the desire to restore a freshwater stream in 
order to boost their local economy or provide recreational 
opportunities. Linkages must be drawn between the local driver 
and the Bay.
    As local government officials, we are focused on the 
basics--protect our communities' health, safety, and welfare, 
which, for some--sometimes is not apparent on how that connects 
to the Bay. But, when we talk about things that harm the Bay, 
like pollution and runoff and flooding, those--my colleagues 
and I in Pennsylvania, Virginia, Western Maryland, West 
Virginia, New York, and Delaware now understand what is good 
for the Bay is good for their residents, too. As we all know, 
it all has to go somewhere, and eventually somebody's got to 
clean it up.
    The new Agreement sets goals for environmental literacy. 
Specific strategies must be developed, not only for students, 
but for the public at large, decisionmakers, and elected 
officials. Although we ask our citizens to fund this necessary 
endeavor, we have done very little to simply explain why. If 
you engage and educate Main Street, you will gain their 
support, influence growth patterns, and reduce pollution in our 
communities, which inevitably will improve the Chesapeake Bay. 
An effective watershed-wide environmental education program 
will ensure that environmental literacy outcomes will be 
achieved. If we are to be successful in this agreement, we must 
do a better job of communicating the vision as it relates to 
people in their daily lives.
    I live in Havre de Grace, Maryland, at the--at--where the 
Susquehanna River joins the Chesapeake Bay. It's hard for me to 
imagine that others don't have that deep connection that I do. 
But, as I have traveled the watershed from the Commonwealth of 
Virginia to the farmlands of Pennsylvania to Maryland's Eastern 
Shore to the mountains to Washington, DC, I have witnessed that 
same deep-rooted commitment to protect those special places 
that we are responsible for. Many have pledged to do their 
part. Now we need your help.
    We are grateful for additional funding to implement the 
budget. And, Mr. Chairman, thank you for your leadership and 
support. While I would hope the funding will continue in the 
future, I believe we can also do a better job using existing 
funds to achieve benefits. For example, in--well, I'll give 
this example later. In--I believe that there are opportunities 
beyond environmental funding to align resources to multiply 
benefits of water quality.
    I thank you, Mr. Chairman, for the opportunity to be here 
and provide a local perspective to this global issue.
    [The prepared statement of Ms. Lisanti follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
        
    Senator Cardin: Thank you very much, Councilwoman Lisanti.
    We'll now turn to The Honorable Steve Hershey.

               STATEMENT OF HON. STEVE HERSHEY, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Hershey: Thank you, Senator Chairman, fellow panel 
members and stakeholders. I appreciate the opportunity to speak 
with this committee on the recently signed Chesapeake Bay 
Watershed Agreement.
    I am State Senator Steve Hershey. I represent the upper 
Eastern Shore of Maryland. And I certainly support the goal of 
restoring the Chesapeake Bay. However, because of Maryland's 
experience with previous Chesapeake Bay agreements and the 
subsequent EPA 2010 Bay TMDL pollution reduction goals, I have 
two major concerns with this new voluntary agreement:
    First, the voluntary Chesapeake Bay agreements and the 
mandated EPA pollution reduction goals are regularly cited as 
motivation for advancing policy initiatives which previously 
were considered politically untenable. Both Maryland's 
executive and legislative branches now craft policy and defend 
such policy as critical to the Bay restoration goals. Some have 
rightly questioned the necessity of these policies to achieve 
Bay cleanup goals, as policymakers have established new 
accountability mechanisms to measure success. While it is 
important to wonder how effective these policies may be, policy 
proponents unfairly dismiss such skepticisms, oftentimes 
accusing their authors of not supporting Bay cleanup efforts.
    My second concern focuses on the astronomical cost to 
achieve the goals and outcomes outlined in this Agreement. In 
2012, Maryland's Department of Legislative Services estimated 
that the Bay's total cost for pay--Bay reduction efforts to be 
$14.7 billion through 2025. Although this agreement asserts 
that progress must be made in a strategic manner, focusing on 
efforts that will achieve the most cost-effective results, our 
experience in Maryland confirms that these restoration efforts 
will have an enormous price tag with limited evidence that they 
may yield significant results.
    Forty-five years ago, when the Clean Water Act became law, 
the Federal Government provided 87.5 percent of the funding to 
help local governments pay for the massive investments. Since 
then, the Chesapeake Bay Watershed Agreements have been 
voluntary and generally independent of Federal assistance. 
Today, the EPA mandates exist, but the Federal funding does 
not.
    Forced to comply with these unfunded mandates, State 
policymakers have not just passed the financial obligation down 
to the local subdivisions, but they have also directed the 
manners in which those subdivisions are to meet the Bay 
objectives. While these mandated pollution-reduction goals have 
accelerated Maryland policy initiatives, such as centralized 
planning, tier water and sewer maps, and the usurping of local 
and zoning authority, efforts to achieve pollution-reduction 
goals focuses on four main areas, which are agriculture, 
septic-system regulation, stormwater management, and sewage 
treatment.
    Maryland's agricultural regulations have tightened since 
2010 in an effort to meet the Bay objectives. Demonstrating the 
agricultural communities' commitment to Bay restoration, the 
Maryland Farm Bureau reports that State farms have already 
reached their 2017 watershed implementation plan. Farmers have 
worked to reduce the nutrient loading by implementing best 
management practices which--with limited State assistance. 
Nonetheless, the Department of Agriculture intends to 
promulgate further regulations by implementing a phosphorous 
management tool which could have a devastating effect on our 
region's farmers. With little concern for cost implications, 
Maryland is now asking its farmers, who have done their part, 
to do more in the name of Bay restoration.
    In order to meet the Bay objectives, Maryland has directed 
its attention, enacted law, and promulgated regulations 
governing the use of conventional septic systems. It should be 
emphasized that Maryland's septic systems discharge contributes 
0.8 to 1.6 percent of the total Bay nitrogen load. Nonetheless, 
under the yoke of the Federal mandate, Maryland has enacted 
laws to restrict septic use in new developments. In rural 
areas, like the one I represent, this has stunned development, 
lowered land values, and dissuaded businesses from locating to 
rural counties.
    Maryland has certainly been the most aggressive in 
relationship to stormwater management. Maryland's Department of 
Legislative Services reports that stormwater management 
initiatives will cost local governments $6.27 million over the 
next 15 years--I'm sorry--billion dollars. Since this mandate 
contains no funding, the Maryland General Assembly passed what 
is commonly known as the ``rain tax,'' which forces local 
governments to impose a tax on businesses, commercial 
industrial properties, and homeowners, based on the amount of 
their impervious surfaces. This tax has certainly not improved 
Maryland's reputation amongst businesses and industry. The 
imposition of the--and uncertainty of each county's 
implementation of the rain tax presents an additional 
impediment for businesses seeking to locate in Maryland.
    The fourth focus to reach the Bay cleanup objective has 
been for upgrading Maryland's existing wastewater treatment 
plants. Maryland's 67 major plants were the first to be updated 
with local funds in grants from the State's Bay Restoration 
Fund. This special fund is financed by an assessment known as 
the ``flush tax'' on all property owners across the entire 
State. Maryland intends for its smaller plants to be updated in 
the coming years with enhanced nutrient-removal technology. 
While larger wastewater treatment plants this technology have 
reduced their nutrient output, smaller plants do not treat the 
same volume of waste, and the expensive upgrades create only a 
marginal environmental benefit when--one must consider the 
volume of waste processed through the treatment plant.
    Again, cost-effectiveness is of little concern. For a 
smaller municipality, the price tag for an ENR upgrade can be 
staggering. I represent the town of Betterton, in Kent County, 
which has a population of 339 people. Last year, Betterton 
approved an ENR improvement of its existing wastewater 
facility. The projected cost is between $5.5 million and $7 
million. While Federal and State grants may reduce the total 
cost by about 3 million, the town may have to find a way to 
finance the remaining $2.5-to $4 million. For a town with such 
a small population, one can't help to consider if such an 
upgrade is a worthwhile investment.
    These major investments in wastewater treatment facilities 
and stormwater management projects on top of the regulations on 
our farming industry and restrictions on growth in our rural 
counties in the name of a healthy Bay come at a heavy cost 
without any guarantee that the investments will pay off.
    Consistently, Maryland's executive and legislative branch 
policymakers along with environmental organizations have chosen 
to ignore the single largest point solution--point of pollution 
in the Chesapeake Bay Watershed: the Susquehanna River and the 
discharge of nutrient and sediment that flows through the 
Conowingo Dam. This disregard is once again apparent as this 
agreement fails to mention either the river or the dam.
    All of the goals and the outcomes outlined in this 
agreement, along with the investments to achieve them, might be 
in vain as one major storm event in the Bay Watershed could 
wipe out any progress. Failure to address or assign 
responsibility to dredge and maintain the accumulated sediment 
behind the Conowingo Dam undermines the legitimacy of this new 
Agreement.
    I would urge other States considering voluntary pacts 
similar to the Chesapeake Bay Watershed Agreement to enter such 
agreements with caution. In Maryland's experience, non-
adherence of such agreements have served as a basis for an EPA 
unfunded mandate. Similar agreements could provide the opening 
needed for EPA to force States to spend billions on 
unaffordable and largely ineffective efforts that may never 
reach their intended goals. As an outcome of the Chesapeake Bay 
Watershed Agreement or EPA mandates, improvements in the health 
of the Chesapeake Bay must be achieved in a prudent and 
fiscally conservative and responsible manner. We all want to 
save the Bay, but how to do so with limited Federal Government 
resources is still a point of discussion.
    [The prepared statement of Senator Hershey follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    Senator Cardin: Senator Hershey, thank you very much for 
your testimony.
    Many of you mentioned additional Federal resources, which 
is something that is dear to all of our hearts on dealing with 
the Chesapeake Bay. And I could mention literally every member 
of the Congress from the Bay region who have been helpful to us 
in the Chesapeake, but let me just acknowledge Senator 
Mikulski, my colleague and chairman of the Appropriations 
Committee. The two of us have had several discussions on how we 
can maximize the Federal resources in regards to the Chesapeake 
Bay. And it's incredibly helpful to have Senator Mikulski as 
Chair of the Appropriations Committee, and I just really want 
to acknowledge that.
    Senator Hershey, you raise some very valid points in 
regards to how the plans are implemented. So, let me just back 
up. And you're correct that the current enforceable program on 
the Chesapeake Bay comes under the Clean Water Act. The waters 
have been determined to be impaired, and there is certain 
science that base certain results and enforced an--and held--
progress by the TMDLs, and we can judge where we are in regards 
to improvements. But, the Watershed Improvement Plans, the 
WIPs, are developed by the States, so the specifics are really 
a State issue, not so much a Federal issue, as to what is 
determined to be the priority of the State in reaching what 
science says that we can reach. And I understand some of the 
concerns you raise, but I think many of these are State issues 
more so than Federal, although I would like to get more Federal 
funds. I couldn't agree with you more on that point.
    So, let me start, if I might, with Mr. DiPasquale. As--you 
were saying there's accountability in the Chesapeake Bay 
programs. It's a State--have signed on, but it's voluntary. So, 
can you sort of reconcile how we have accountability in a 
voluntary agreement?
    Mr. DiPasquale: Sure. Well, I think, as you know, Section 
117 of the Clean Water Act authorizes the Agreement, and there 
are no enforcement mechanisms or enforcement provisions that 
are contained in them. So, it's not like a law or regulation 
that would be implemented and then there would be consequences 
if a party didn't comply. So, it has been the best-faith effort 
of the signatories to the agreement that have given us the 
progress we have achieved to date.
    There is a modest amount of funding to support the new 
agreement, and we're working with the States and the District 
of Columbia to help provide support to them. I might also add 
that, under the TMDL, about--almost two-thirds of the funding 
that comes to the Bay Program ends up going back out to the 
States to help them implement their obligations under the TMDL. 
So, there is more support on that end.
    But, it is a voluntary agreement. The States will 
participate and contribute--all the signatories will, to the 
extent they can. I think we recognize that there are some goals 
and outcomes contained in the Agreement that aren't really 
relevant or appropriate for some of the jurisdictions. Blue 
crabs, for example, probably are not a big concern in West 
Virginia. So, we know that they're not going to be 
participating in that part of the agreement.
    But, the agreement does define what participation really--
what activities constitute participation. And it's a wide range 
of activities: contributing data, providing reports, sharing 
successful experiences in each of those jurisdictions.
    But, we--the accountability really comes in the management 
strategies and the biennial reviews. And we will measure our 
progress. We will be held accountable by the public. We're 
going to make all of that information available, at a click of 
a mouse, basically, or in any form that anybody needs to get 
it. But, the accountability really is in the management 
strategies and the 2-year reviews and progress updates.
    Senator Cardin: Well, you know, and I applaud you for being 
very specific as to the goals in many different areas. I could 
talk about the number of oyster restoration projects in 10 
streams. We could talk about some of the specifics in regards 
to acreage of wetlands that you intend to protect, the number 
of conservation acres in a State, the restoration of sea 
grasses and--I mean, there's a lot of specifics in this 
Agreement. But, there is less specifics on dealing with 
agriculture, specifically. You don't have the cover crops or 
things like that spelled out. There's less specifics on storm 
runoff. Is there a reason why those two areas are not as 
specific as you have it on the fish habitat and on some of the 
other areas?
    Mr. DiPasquale: That's a great question, Senator. And 
really the water quality goals essentially adopt the existing 
TMDL and Watershed Implementation Plan, so there's no specific 
source sector that's broken out. Those are already contained 
within the Watershed Implementation Plans, and those are the 
mandatory part of the program. So, it--there was some 
discussion early on about not including water quality, and 
specifically the TMDL, but the signatories felt that it was 
important to have water quality contained within the voluntary 
agreement, even though it was a regulated or mandatory program.
    Water quality works in conjunction with habitat and 
fisheries. And I think the signatories felt it was important to 
really deal with the entire restoration effort on an ecosystem 
basis, and water quality was included for that reason.
    Senator Cardin: That's helpful. And I understand the aspect 
of adopting what's in the TMDLs.
    Let's go to point source for a moment. Toxic. As I 
understand it, at least some of the original drafts did not 
have the toxic in there. It seems like it's even less specific 
as to how we deal with point source problems.
    Mr. DiPasquale: Correct. The original document that was put 
out for public review did not contain a toxics goal and 
outcome. And there were some signatory members who felt that 
the existing programs would--were already doing an adequate job 
dealing with those issues. But, there were others who felt 
that, certainly, the partnership could provide a coordination 
effort that could look for gaps. We have a lot of emerging 
contaminants--for example, pharmaceutical products, estrogen 
disruptors, those sorts of things--that wastewater treatment 
plants don't currently deal with. We're also dealing with a lot 
of legacy issues; for example, from PCB contamination and 
mercury contamination. And those are pretty widespread in water 
bodies throughout the country.
    At the end of the day, after receiving public comment--we 
received 2400 comments, and many of those were focused on 
toxics and climate change. And the signatories agreed that they 
needed to be included in the new Agreement.
    Senator Cardin: Let me move to State and local for a little 
bit. I'm--Mr. Robertson, you're not off the hook. We're--I have 
some questions for you on specific issues.
    [Laughter.]
    Senator Cardin: But, let me--Senator Hershey, I want you to 
know that I did hold a hearing on the Conowingo Dam. So, we--
our subcommittee held a hearing on that, because we are 
concerned about the impact it has on water quality. I learned a 
new term: dynamic equilibrium. I never knew that term before 
that hearing, dealing with sediment issues. And that--and there 
is a permitting process, as you know, in regards to the 
Conowingo Dam, that is currently being reviewed.
    So, the fish passageway that Mr. Robertson talked about is 
a major part of our effort on the Bay, so it's not just the 
sediment and pollution that is blocked by dams that can be--
cause surges that we're not exactly sure of the total impact on 
the water quality, but it's also fish passageways and fish 
habitat that's affected by it. And if you've never seen the 
fish elevator that's at the Conowingo Dam, it's worth a visit 
just to see how the shad make it upstream. And eel have a 
little bit more problems. They have to--we have to use a car to 
take them up, or something. I don't know how that all works, 
but it's----
    [Laughter.]
    Senator Cardin:--it is a challenge to deal with the habitat 
issues whenever you have a blockage on the--on our rivers.
    I am amazed, Ms. Lisanti, that you're dealing--you had to 
deal with 1800 units of local government.
    Ms. Lisanti: Yes.
    Senator Cardin: That's a challenge. I mean, there's a lot 
of local governments, and they don't have the same degree of 
flexibility that a State may have.
    Ms. Ward, I--we give the States flexibility so you have 
some way of judging what's important for your State.
    But, if I could ask the two of you, How do you deal with 
the local governments, versus the State, in trying to put 
together your action plans and policies? And, Mr. Miller, you 
want to join us in this discussion? I'm just curious as to how 
the input from our State and local governments are handled to 
get into the Bay Agreement itself.
    Rep. Miller: It's a good question, Senator. In 
Pennsylvania, as you know, we probably add to the--a huge 
amount to those numbers of local governments with our 
municipalities, boroughs, incorporated towns, townships. It's 
difficult. It really is. But, we are making a very specific 
effort at the State to reach down to them and do an educational 
process. I will tell you that York County is at the forefront 
with stormwater planning, trying to come up with a coherent 
plan across the whole county that will work for stormwater 
management.
    But, you are absolutely correct, it is an educational 
process, it's an outreach process that we need to continue to 
work on.
    Ms. Lisanti: From the Local Government Advisory Committee 
perspective, we have representatives from all of the signator 
States, and they're a diverse group of elected officials. Some 
are from municipalities of less than 300, others are from major 
subdivisions, others with strong county governments, some with 
very weak State governments. Very different forms of government 
in those 1800 units.
    So, what we tried to do in providing comments that would be 
effective in the agreement was to look for commonalities. It's 
very easy to get caught up in all the things that we disagree 
on, so we focused on the things that we agree on. And all of 
us, as elected officials, agree on one very specific tenet, and 
that is that we need clean water, whether it's the Chesapeake 
Bay or Lycoming Creek or the Rappahannock or whatever wellhead 
that you get your community's water from. Scientifically, we 
know that what happens on the land affects water quality. So, 
we started there. We started with the basic tenet that we're 
looking for clean water.
    Second, our approach to the States and to EPA is to educate 
them on the capital budget investments that we are doing at a 
local level. Many of our public infrastructure investments are 
joint-funded with the State of Maryland and--with all the 
States, and sometimes with the Federal Government. So, we were 
looking for creative ways to leverage those funds so that we 
would have a water quality outcome. So, we tried to educate, if 
you will, our State and our Federal partners as to what we do 
on the homefront so that they can make better policy decisions.
    Senator Cardin: I really do believe that the Chesapeake Bay 
strategies was bottom up. It came from the locals up to the 
Federal, and it was initiated by leadership in our State and 
our counties and private sector, and that's how the Bay 
agreements came about. It wasn't Washington saying, ``Hey, why 
don't we have a Bay agreement?'' It was----
    Ms. Lisanti: Right.
    Senator Cardin:--basically, the locals saying, ``We know we 
have to work together. And, by the way, we need the Federal 
Government, and we need your help in putting this together.''
    How did the Commission interact with the Bay Agreement? Was 
there an open process, here? Are you satisfied that local 
government got enough input? That's to you, Representative 
Miller.
    Rep. Miller: From the Chesapeake Bay Commission----
    Senator Cardin: Yes.
    Rep. Miller:--perspective?
    Senator Cardin: Yes.
    Rep. Miller: Senator, you know all politics is local. You 
need to work with your colleagues to get something passed. In 
Pennsylvania, we need to do the same. So, it becomes an 
educational process, working with everybody to try to convince 
them that this is the proper thing to do. But, since all 
politics is local, the point was very well made that it--we 
don't have to focus on the health of the Bay, we have to focus 
on the health of individual rivers, watersheds. People get 
that. They understand. They want clean water in their creeks, 
they want clean water in their rivers, they want to be able to 
fish, they want to be able to recreate in those waters. So, we 
have to boil this down to a local issue. We have to sell the 
importance of this on ``everything is local.'' We address the 
needs in our own watersheds, and, by doing so, we will address 
the needs of the Chesapeake Bay.
    Senator Cardin: Senator Hershey, you and I are going to 
agree that our farmers have done a really first-rate job in 
trying--they want clean water, they want the Chesapeake Bay--
they understand the importance of it. We've had programs in 
Maryland with cover crops and farming practices to try to deal 
with the challenges of the Bay. We also want to preserve 
farmland in our State. It's far better to have farmland than 
developed space, and we want to maintain a strong agricultural 
base, particularly on the Eastern Shore, where it's part of the 
life.
    There seems to be a lot of national interest on what's 
happening in the Chesapeake Bay Watershed, which, at times, can 
cause it more difficult for us to have the type of relationship 
that we've had in Maryland with our agricultural community in 
trying to work together on the agreement. Do you have any 
advice for us as to how we can get greater confidence from the 
agricultural community that we are really balanced, and want to 
be balanced, in the way that we deal with the future of the 
Chesapeake Bay?
    Senator Hershey: Well, I think you said it. We certainly 
want to have more farmland, but we don't want to continue 
having the farmlands being the target of the pollution that's 
going into the Bay. And far too often, we're seeing that some 
of our farmlands are being targeted with where the sediment is 
coming from, with having to do--more than just cover crops, but 
having to maintain ditches, having to maintain certain 
waterways. And we feel, over and over, that the farmers have 
done their job in doing this.
    As we said earlier, they've already reached their 2017 
pollution reduction goals, and I think it's about time that the 
farmers are given the opportunity to take a look at, and have 
more input into, what these different policies are. As I said 
before, a lot of my concerns on these things deal with cost-
effectiveness.
    And last summer, we were meeting with the farmers in 
Easton. As I mentioned earlier, the State of Maryland is 
talking about putting a phosphorous management tool in place. 
There were over 500 farming families that were at this 
location, up in arms about what these new regulations are going 
to do to their businesses. And I don't think that we look at 
them enough, and I don't think we get enough of their input on 
what the cost-effectiveness is what the cost-benefit is on 
these types of policies. We need to include them more.
    Senator Cardin: Secretary Ward, I've mentioned, several 
times, the flexibility to the States. And I want to get 
Virginia's perspective as to whether there is adequate guidance 
for you to make your local decisions, consistent with the 
overall strategies. And I would appreciate your comment on 
that, and then I'm going to get to a specific question on 
oysters, in a moment.
    Ms. Ward: Well, I have a local government background, as 
well, and I agree with what the other speakers have said, in 
terms of, you know, that is where the decisions really get 
made, and that really is where the rubber meets the road. And 
that's our perspective, as well. And we've included the local 
planning district commissions, the soil and water conservation 
districts, and the people that really have their boots on the 
ground as we've gone through this process. We've thought it was 
very, very important to have them at the table the whole way 
along the route.
    Senator Cardin: So, let me talk about oysters for a moment. 
Virginia was a pioneer in looking at an Asian oyster, as to 
whether that could work. We've been pretty desperate to try to 
increase our oyster crop. We've seen some positive signs in the 
last several years. I appreciate what Mr. Robertson has said 
about that. So, let me get your view, and then I want to turn 
it over to Mr. Robertson, as to how he plans to implement this.
    It's pretty specific about 10 restoration projects in--I 
think it's 10 streams. Are you confident that will be 
determined in a fair manner by the discussions you've had in 
the development of the Bay Agreement?
    Ms. Ward: Is this my question or----
    Senator Cardin: Yes.
    Ms. Ward:--Peyton's question?
    Senator Cardin: No, I'm getting to----
    [Laughter.]
    Ms. Ward: I'm sure he's confident as----
    Yes, we are confident. We've had a great partnership, thus 
far, and had fair and open discussions. And we expect to 
continue to do so. And, you know, Virginia, as I stated in my 
comments, has had this very aggressive restoration program, in 
terms of oysters and oyster reefs. We've just laid some new 
concrete--concrete substrait reefs in Virginia and are taking 
it river by river. So, we--I don't--we don't always agree, but 
I believe that we do have a clear road ahead, a clear path 
ahead.
    Senator Cardin: Well, OK.
    Let me turn to Mr. Robertson for a moment. I've been out in 
the Bay, I've been with watermen. I know the--a little bit of 
the politics of oyster restoration, and it's pretty--can be 
pretty complicated. It's not easy. You made a very general 
statement that you're going to select the best locations from 
the point of view, I guess, of productivity. My guess is that 
was a little naive, that there will be some politics played on 
the 10 sites that you select. Can you give us a little bit more 
guidance as to how these selections will be made?
    Mr. Robertson: So, from a NOAA perspective, of course, 
we're talking about being in State waters. And so, our role as 
a Federal agency is really facilitating a process by, you know, 
trying to provide sound science and working with the States to 
bring that information to bear on their selection.
    In the State of Maryland, the State identified a variety of 
historic oyster bars, essentially looking at the historic 
habitat that had been most productive, looking at what 
available habitat was still there. NOAA's support for that 
really has been to go out and confirm that the habitat that's 
been identified for doing that restoration is the best 
available to do the work so that science essentially is 
contributing to where we focus the work. We've done a similar 
effort in Virginia.
    I appreciate your point that, with respect to affected 
interests, not all are necessarily appreciative of whatever 
designations those--have been made, in the case of Maryland's 
so-called sanctuaries, which are off limits to fishing. But, 
I'd offer two hopeful outlooks for the future to try to 
reconcile those differences:
    One, the point made earlier, not only that all politics are 
local, but Councilmember Lisanti talking about what's 
meaningful to people on a local level. I think we're finding 
that using a tributary-based approach, where the river system 
is named--and I'd use the Lafayette, in Virginia, as an 
example--looking at the way the community has come together 
around that river and how interested they are in oyster 
restoration really gives us signs that there's a growing 
general public interest in these ecological relations, and 
they're owned, really, by that community. Again, the 
Lafayette's a great example.
    The other is that, with the gross of the--growth of the 
aquaculture industry, which has--is really taking off in 
Virginia and is following suit in Maryland, that there is now a 
bit of a bifurcation in the industry, and many are going--the 
entrepreneurs are essentially going after aquaculture, because 
it's more cost-effective and effectively generates greater 
profits. And so, I think, as more watermen use--you know, move 
to that approach of growing oysters, whether they be on the 
bottom or in cages, we're going to see a shift in pressure off 
of the wild fishery, and perhaps some of those conflicts that 
have existed with local watermen communities will be defused 
over time.
    Senator Cardin: So, I think you've answered my question. I 
think you have. By saying ``best available,'' you're talking 
about within the confines of the State's interest. Is that a 
fair statement? So, you would evaluate applications through the 
States and then, within that, determine best available?
    Mr. Robertson: That's right. I mean, the way the work is 
actually done is an interagency workgroup that includes NOAA, 
the U.S. Army Corps of Engineers, the State management 
jurisdictions; in the case of Virginia, the Virginia Marine 
Resources Commission; in Maryland, Maryland DNR; along with 
other partners, to look at exactly what you said, what are the 
States' interests in areas that they would like to identify. 
And NOAA and the Corps are providing both the science and 
looking at the projected resources necessary so that we can 
support the effort both with science and implementation 
funding.
    Senator Cardin: And there has been Federal interest in 
helping fund on oyster restoration. It's----
    Mr. Robertson: Absolutely.
    Senator Cardin:--an area that there is a great deal of 
interest in trying to deal with. And, as I said, we've seen 
some encouraging signs. You know, I don't want to get too 
optimistic, because we're still only at 1 percent, but we have 
seen some encouraging signs. And there seems to be more 
community support for oyster restoration. So, it's an area that 
we need to move forward. And I'm very interested in following 
up how the 10 sites are actually selected for this project.
    Let me turn to crabs for one moment. You mentioned a fact--
you have an ambitious goal, I must tell you, considering the 
recent numbers--you mentioned the problem with the recent crab 
population was overexploitation and habitat degradation. I 
think they're the two issues that you mentioned. So, how do we 
deal with the two problems in order to achieve our goals on 
adult female crabs?
    Mr. Robertson: So, going back to how that target was 
established--so, 215 million adult female crabs is the result 
of science continuing to evolve. We used to have a goal that 
was 200 million adult crabs. The last blue crab stock 
assessment said we really should focus on females. That science 
was used to apply by the States to setting that target. The 
point of your question is, you know, in terms of natural causes 
versus manmade causes or fishing mortality, as we call it, 
which is essentially watermen taking crabs out of the water, 
that's something that, you know, we can manage that effort. 
Those are the so-called knobs that can be turned by managers. 
These other natural factors of mortality are ones that we have 
essentially theorized about. We have some good science that 
supports the suggestion that something like overwintering 
mortality or the temperature drop last winter was so severe 
as--a number of crabs died, and therefore the available female 
population to restock the next year, if you will, wasn't 
available. But, frankly, that's part of the road ahead, as 
well, to understand better what the range of these factors is. 
They've been theorized by everything from crabs eating each 
other to red drum coming into the Bay and consuming crabs in 
the lower Bay.
    So, there'll be a continued need for science to inform that 
decisionmaking, but I would also offer that, in terms of the 
partnership between the jurisdictions that manage this fishery, 
being the Maryland Department of Natural Resources, the Potomac 
River Fisheries Commission, and the Virginia Marine Resources 
Commission, and all those fishery managers who were just 
together for a meeting of the Chesapeake Bay Commission, down 
on Tangier Island last week, there is great cooperation amongst 
those jurisdictions. There's also a real sensitivity to the 
pain that's caused when they do have to turn the knobs and 
ratchet down on the fishery. And there's, I think, a sincere 
commitment to move forward and make sure they understand fully 
all the range of factors that are affecting blue crabs as they 
manage that fishery.
    Senator Cardin: I want to get Senator Hershey into this 
discussion, if I might. And I want to come back to give you a 
chance, also. But, it seems to me this is a very sensitive 
issue.
    I think there's an understanding that what we take out of 
the Bay affects the health of the Bay. I think there is an 
understanding. And we've gone through a long process on 
rockfish, and it's a--it looks like it was--the results have 
been pretty positive on the rockfish population. But, one thing 
we learned from that is, to have a healthy industry in our 
State, they need some predictability as to what their season is 
going to look like. They just can't--we can turn it on pretty 
fast and turn it off pretty fast. They can't. So, how do we 
make these decisions in a way that's sensitive to those that 
are in the industry?
    And, Senator Hershey, let me turn to you as to--am I 
correct, is this a concern that you hear about in regards to--
--
    Senator Hershey: You're absolutely correct. In fact, last 
session, we had legislation addressing that same issue, on how 
DNR is turning on and turning off, whether it be limits or 
whether it be the season, in itself. And what our commercial 
watermen are certainly asking for is predictability. They want 
to be able to know that they have a certain season, that they 
go out and they can earn a living in doing so.
    I think what we also find in the differences between maybe 
what Mr. Robertson and I deal with on a different basis is, he 
certainly deals in the science end, and I certainly deal in the 
end of talking every day to the commercial watermen and what 
they're doing. And there is a discrepancy there. There is a 
disconnect.
    So often in Maryland, we seem to believe that policy 
sometimes is driving the science, that, in a sense, the policy 
is being created on the--on, again, maybe in the interest of 
the Chesapeake Bay or in the interest of some type of act, but 
we're not seeing whether or not the science came first or the 
policy came first. And the commercial watermen are definitely 
out there, along with our farmers, are saying that we see, over 
and over again, this policy comes first and then all of a 
sudden they dig up the science to back that up. And, you know, 
again, more and more, we need to get these groups involved. 
They are a tremendous industry in the State of Maryland. 
Agriculture, No. 1, farming--and, you know, commercial watermen 
are doing everything they can. It's becoming tougher and 
tougher on these groups, and we really need to include them so 
we can find better ways to help them out.
    Senator Cardin: Mr. Robertson, what type of assurance can 
you give on making decisions in a timely way for those that 
make their livelihood off of the harvest of the Bay?
    Mr. Robertson: Well, I think, first, a cautionary note that 
providing predictability with respect to blue crabs is a big 
challenge, because they're a--they're not like striped bass or 
rockfish, they don't run on 7-year recruitment cycles, they run 
on annual recruitment cycles. And so, these variety of factors 
that we think may affected them are very difficult to address 
in such a short timeframe.
    But, I would say that, with respect to predictability, 
there are a variety of good efforts going on, including, in the 
State of Maryland, something called the Blue Crab Design Team, 
which has been working with industry to try to provide both 
greater accountability, in terms of what watermen are out there 
catching, and, in return, provide greater predictability by 
trying to create some sort of understood allocation or basis 
for which the fishery is predicated on. In so doing, from an 
economic standpoint, if you're a crabber, you actually have the 
better ability to get a more predictable price for your bushel 
of crabs when you bring it dockside. Right now, we've been in a 
cycle of boom-bust; whereas, abundance increase, fishing 
pressure increases, but the price that watermen get at the dock 
goes down. And so, that's actually not in the interest of 
watermen in the long term. We'd like to see it become both more 
accountable and more predictable so that they actually get a 
much better and consistent price at the dock, and that's going 
to contribute to their livelihood.
    Senator Cardin: And I suppose the restoration of 185,000 
acres of submerged vegetation will be well-received among those 
who make their living off of the crab crop, so that's a--that's 
certainly a very positive step.
    Mr. Robertson: Certainly, habitat issues out there that 
we'd love to see----
    Senator Cardin: Yes.
    Mr. Robertson:--SAV come back.
    Senator Cardin: Representative Miller, I want to talk about 
the upstream issue just for one moment. I was--in reading some 
material for today's hearing, I read a lot about the brook 
trout. I was fascinated by it. It's a beautiful species. It 
lives upstream. It lives in cold, clean water, which, to me, is 
somewhat like the canary in the mineshaft. If we have brook 
trout, then we've got healthy water. So, how do--I've always 
been amazed--not amazed, but, I guess, pleased by the 
leadership in Pennsylvania in understanding the importance of 
the upstream water supply in the Chesapeake Bay. Yes, the Bay 
is important to you, but it's not as direct as it is to those 
of us who live on the shores. So, could you just give us a 
little bit of your views as to how we deal with the upstream 
issues which are so critical to the health of the Bay?
    Rep. Miller: Absolutely. Of course, trout fishing in 
Pennsylvania is very, very important. We have seen--actually 
seen more impact on the smallmouth bass in the Susquehanna 
River, and we're trying to address those issues. One of the 
problems that we have is finding the scientific data to 
identify exactly what is causing the issues. It's difficult to 
design a program to address anything if you don't know what the 
cause is. So, there is a lot of study and effort going into 
finding out exactly what is causing those issues.
    But, we go back to the same thing that we've discussed 
quite often. It's--you need to address it at the local level. I 
believe Pennsylvania is doing its fair share. One of the things 
we try to do is inform our decisions based on the data. If you 
look at it, Pennsylvania provides over 50 percent of the fresh 
water to the Chesapeake Bay. Our phosphorous loading is 20 
percent of the loading to the Bay. Now, some people might make 
the argument that that's because of the dams acting as the 
sediment points. But, if you look at a publication put out by 
the Chesapeake Bay Commission recently, it shows the trends for 
phosphorous and nitrogen in the States. And if you look at 
Pennsylvania, the trend for phosphorous at every monitoring 
point is down. We're doing a good job of reducing the 
phosphorous loading coming off of the Pennsylvania areas in the 
watershed. There is one where it is not significant change, 
increase or decrease. I cannot say the same for all the spots 
in our neighboring States. But, we all have to address our own 
issues.
    I believe the dam--the issue of the two dams will be 
addressed as we go forward. But, what has to be realized, that 
probably without those two dams for the past 80 years or so, we 
might actually be looking at a Bay that right now is a dead 
zone. It really did help to save the Bay to the point it is 
now. We will continue to do our share, but we have to address 
it on the local watersheds. And you're absolutely right, our 
fishermen demand it, we'll take care of addressing the issues 
with the brook trout, even though I think they're doing fairly 
well. We'll continue to find the answer to address the 
smallmouth bass, and I think we'll all be better for it.
    Senator Cardin: Well, we very much appreciate the 
leadership of you in Pennsylvania in this area. It's been----
    Rep. Miller: Thank you.
    Senator Cardin:--the Susquehanna is critically important. 
And New York's also a critical State for us on our freshwater 
supply. So, it is a huge part of the Bay initiative.
    Mr. DiPasquale, I was recently on the Eastern Shore with 
the Coastal Storage Program at Assateague. I had a chance to 
meet with some students as they were spending their summer 
learning about the challenges of the--of water quality in the 
Bay. And, I'll tell you, it was just encouraging to meet with 
these individuals. And my thoughts were, you know, how do we 
capture that, how do we make sure that training is not lost and 
that we have a better environmental education literacy program? 
It's part of the Bay Agreement. My colleague in the House, John 
Sarbanes, has taken a leadership on No Child Left Inside, that 
we've got to get children much more sensitive. There is no 
question that the environmental literacy and access to the Bay 
are two areas that are in the Bay Agreement, the new Bay 
Agreement, that are aimed at helping future sensitivities to 
preserving the Bay. Can you just tell us a little bit more how 
that discussion took place and how the agreement is framed in 
that regard?
    Mr. DiPasquale: I'd like to. So, the executive order that 
was issued in 2009 actually contained a number of goal and 
outcome areas, environmental literacy and public access. One of 
the objectives of the new Agreement was to try to better 
integrate the efforts of the--under the TMDL, under the 
executive order, and to incorporate those into the new Bay 
Agreement. So, now we have a separate environmental literacy 
goal and outcomes. A lot of work has already been done in that 
area. Maryland certainly has been one of the leaders in 
environmental literacy and very much supported by the 
administration here. NOAA has actually led the effort in the 
work that's been done under the executive order. And public 
access is the--is a program that the National Park Service has 
been working on to increase the number of public access sites 
by 300 sites throughout the watershed. There are some areas in 
the watershed where there are 50 or 60 miles of shoreline 
without public access. And so, they're looking for 
opportunities to site new public access sites.
    But, it's important, I think, for citizens, both young and 
old, to understand the value of the Chesapeake Bay and the 
water--the tributaries, actually, throughout the watershed, and 
to try to learn about them and protect them.
    Senator Cardin: And, Mr. Robertson, of course, you have the 
BWET program. My predecessor, Senator Sarbanes, was critically 
important in establishing that program. We're very supportive 
of it. Does the Bay Agreement tie into the work that you're 
doing?
    Mr. Robertson: Yes, I think, directly. I mean, it's really 
building off the success of that program, the idea of providing 
a meaningful experience for students at least once--the 
previous commitment of the Chesapeake 2000 Agreement, to 
provide that experience once during their high school or entire 
school career, grade school career. Now, in the new agreement, 
being, let's try to make sure they have one of those types of 
experiences in both elementary, middle, and high school. So, I 
think it's building on the idea that we know those experiences 
have an impact on students. It sounds like, perhaps, some of 
the ones that you interacted with. And that if we can continue 
to expand that, we'll see great results, going forward.
    I might also just add that, you know, it's not just taking 
them out to a place, it's not just what they learn, it's now 
they learn it, and that this sort of integration of literacy--
environmental literacy into school systems and into the 
curriculum is really becoming a way of teaching that I think is 
understood to have a bigger impact than just teaching the 
subject, so to speak.
    Senator Cardin: Thank you.
    I should point out, as I did a little bit earlier, there 
are many different programs that feed into the work of the 
Chesapeake Bay--in the Water Act and recently in the farm bill 
with the Regional Conservation Partnerships--and we're very 
interested to see how that is moving along, since that is brand 
new. The Bay was, of course, designated as one of the critical 
areas in the country, so they'll be allowed to qualify for two 
sets of funds under that program. So, that's--gives us another 
source of funds that go into the Bay.
    I will be talking with--I already talked to Secretary 
Jewell in regards to the designation under the Land and Water 
Conservation Fund. We think it is absolutely wrong that there 
is no waters on the East Coast, other than the Everglades, that 
have been designated under that program. So, we are going to 
push hard to try to get funding.
    The State Revolving Funds, of course, are used to help deal 
with this. The President included in his budget $70 million for 
the Bay Agreement. The markup in Senator Mikulski's committee 
includes that $70 million. So, there are funds that are 
available to try to help deal with these problems.
    So, let me, finally, ask about one area in the agreement 
that seems like it could consume every dollar you have there 
and then some, and that's resiliency, dealing with the 
realities of the challenging climate that we have.
    So, I just really want to know, To what degree to you 
expect resiliency to be advanced in regards to this chapter of 
the partnership among the States? What can we expect? I--again, 
I--the challenges of dealing with the unpredictable has been 
very, very difficult for all of us. So, how is that worked into 
the agreement?
    Mr. DiPasquale: I'll take the first shot at it and then 
turn to Peyton. NOAA has a specific role in that effort.
    So, you're aware that there is a separate goal and two 
outcomes dealing with climate resiliency and adaptation. And I 
think there's been a recognition over the last several years 
that needed to be front and center in all of our efforts 
because of the impact that climate change can have on the work 
we're doing to try to restore the Bay. So, if we have higher 
temperatures in water, for example, that could actually reduce 
dissolved oxygen, which is an important part of the TMDL. It's 
all really connected.
    A lot of the States have already started moving ahead with 
adaptation plans. We've seen Hurricane Sandy have a tremendous 
impact, and the Corps has done a--along with NOAA--has done a 
terrific job in identifying opportunities to make waters more 
resilient to those kinds of impacts. We're going to be hiring a 
climate change coordinator, in fact, in the next few months, 
and that individual not only is going to be responsible for 
assisting us in updating the Bay model to deal with climate 
change impacts, but also working across all of the goal 
implementation teams to show them areas that potentially could 
be impacted by the effects of climate change. And NOAA is at 
the front and center of that. In fact, we'll be executing an 
interagency agreement with NOAA to bring on that coordinator.
    Senator Cardin: Peyton.
    Mr. Robertson: So, I think that's one piece of it, is 
bringing a focal point to it, right, is an issue that's so 
pervasive, is to try to create a point of contact and a means 
for which the issue can be addressed across all of these goals. 
Climate is understood to be a factor that's going to affect our 
ability to achieve every one of these goals. And so, it's a 
crosscut that way, and we're going to take a look at it that 
way.
    My full written testimony includes some specific examples 
of the kind of work NOAA's doing. But, in essence, you know, as 
has been referred before, we're really a science agency with 
service built in, in terms of the ways we can bring that 
science to bear for other decisionmakers. And so, that's 
effective, because what we're trying to do is both understand 
what's happening here with respect to change and setting up a 
sentinel site cooperative to look at that, look at monitoring 
sites, and actually see what's happening to sea level and 
coastal inundation over time, looking at things like frequency 
of severe storms and the impacts that has on, not just the 
environment, but on coastal communities, and ultimately make 
that information and tools available to local communities, 
because, as you've heard on this panel, that's where the action 
is. So, we really want to make sure the preparedness and the 
resilience is housed at that level, and the ability to drive 
decisions is there where the action is.
    Senator Cardin: I appreciate your response. So, it seems 
like what you are suggesting is that it'll be informational so 
that we understand what is happening in the risk factors. 
Obviously, there are two ways to deal with this. One is to try 
to deal with the causes of climate change, which is not in the 
Bay Agreement. I understand that. That's a separate debate 
that's taking place in this country and globally. The other is 
dealing with adaptation, which is an area that we can deal 
with. And it is a real challenge, because we've looked at some 
of the cost issues on infrastructure, for example, or for beach 
renourishment or--you could just go through the different 
areas. And they are pretty--it's pretty steep, the cost in 
regards to dealing with adaptation. The truth is, we have to 
deal with both. And it's--I--it's important that it's part of 
the agreement, because there's no question it has a direct 
impact on the future and quality of the Chesapeake Bay. So, I'm 
pleased to see that is part of the agreement, but I--it's--
you're just starting us down that path. We're going to have a 
much more serious discussion on those issues.
    I don't know if anyone else wants to make any comments 
before we wrap up.
    Ms. Lisanti: If I may, Senator. I just want to leave you--
you asked some of the--you asked how do we--what would be 
advice for moving forward? And I think that, very often--we 
were talking just a few minutes ago about environmental 
literacy, and we always focus that on our children, which is 
very, very important, because it is their lifestyle that 
changes and their connection with nature that will help these 
policies move forward in future generations.
    But, for the immediate short term, one of the things that I 
think is lacking--and we talk about this a lot in our Local 
Government Advisory Committee--is boiling all of this down to 
very simple steps, very simple outcomes. I--particularly the 
Chesapeake Bay Program, NOAA does a fantastic job of doing, you 
know, major reports on each one of these sectors and their 
effect. But, how we communicate that--I think Senator Hershey 
said that--as local government--I know, Representative Miller, 
you've had the same--you have the issue--we are the people that 
meet Main Street. And to explain some of these very highly 
technical matters to the average person, or us, as lay people--
you know, as elected officials, we're expected to know a little 
bit about everything in--we think we do. We try, as--and some 
do it better than others. But, it--these are very difficult 
times, these are very difficult concepts. This is very 
difficult science. So, to have that global education is so 
important.
    I think back, as a child, to programs that the Federal 
Government did, advertising, like Smokey the Bear. Smokey the 
Bear is something that I connected with as a child and guided 
my decisionmaking without me even realizing it. I also remember 
there was another national--I think it was a National Park 
Service advertisement that showed an American Indian on the--on 
a riverbank with debris and litter floating by, and they went 
to him, and he had a tear in his eye. That was--that impacted 
me as a child, that made me think of the world in a different 
way. And I think we get so bogged down in all of the details 
and, you know, in all of the science, but we forget to 
communicate to the average person on the street what this is 
about.
    You know, that's why we have issues like--you know, in the 
State of Maryland, we have a debate on whether we tax the rain, 
or not. Taking that issue, as a legislator, and explaining to 
the people that I was federally required to impose a tax on, 
and explain to them, ``We have a stormwater fee that you are 
paying out of your general fund.'' We are now, in our county--
we were different than a lot of the jurisdictions, but we 
removed that from our general fund and made an enterprise fund 
so the--so it was a direct cost for direct service. We also 
allowed people to opt out. In Harford county, you don't have to 
pay the fee if you take care of your own stormwater. It was a 
very simple step, but it took a lot to be able--for all of us 
to be able to explain that.
    So, I can't let environmental literacy on a global level go 
without emphasis.
    Senator Cardin: Thank you.
    Well, let me thank you all. This hearing has been, I think, 
very helpful in trying to understand the new Chesapeake Bay 
Agreement. As President Obama joined a list of Presidents who 
have declared the Chesapeake Bay a national treasure, this is 
of importance to our entire country, not just the States and 
the region in which it is physically located, because of its 
richness and its biological diversity. So, this is a national 
issue.
    But, also, what's being done in the Bay is being looked at 
nationally for other great water bodies, which my--the 
subcommittee I chair has jurisdiction over. So, whether we're 
talking about Naragansett or we're talking about the Great 
Lakes or we're talking the San Francisco Bay or Puget Sound or 
the Gulf of Mexico, they're looking at what worked in the 
Chesapeake Bay and trying to duplicate that so that they can 
also have a game plan that will help future generations.
    So, this hearing has been helpful, not only in better 
understanding of our committee in the U.S. Senate on the 
Chesapeake Bay and the evolution of the agreements to where we 
are today, a voluntary agreement that is consistent with the 
actions under the Clean Water Act to try to bring it in a 
consistent way. It is also helpful for us to look at what works 
and doesn't work in our country so that we can have the most 
cost-effective, efficient, scientific-based plans so that we 
can lead the Bay in a better State to our children and 
grandchildren. That's our goal.
    And we know that this is a long-term effort. When we 
started this 35 years ago, we knew it would be--need the 
attention for a long time. And it has had that attention, and, 
in part, because of the people that are here testifying today.
    And we thank all six of you for your being here today, but, 
more importantly, for the role that you have played in the 
Chesapeake Bay.
    And, with that, the subcommittee will stand adjourned. 
Thank you all very much.
    [Whereupon, at 2:40 p.m., the hearing was adjourned.]

                                 [all]
</pre></body></html>
